                                       OFFICE OF INSPECTOR GENERAL
                                                               MEMORANDUM




DATE:         December 22, 2003

TO:           Chairman

FROM:         Inspector General

SUBJECT:      Report on Audit of the E-rate Program at the Prince William County
              Schools


The Office of Inspector General (OIG) has completed an audit at Prince William County
Schools, a beneficiary of the Universal Service Fund (USF). A copy of our audit report
no. 02-AUD-02-04-11, entitled “Report on Audit of the E-rate Program at the Prince
William County Schools” is attached. The objective of this audit was to assess the
beneficiary’s compliance with the rules and regulations of the USF program and to
identify areas in which to improve the program.

We have concluded that Prince William County Schools is compliant in most respects
with the requirements of the program for funding year 1999. However, the audit resulted
in one finding and $5,452 identified as a potential fund recovery. We recommend that
the Wireline Competition Bureau direct the Universal Service Administrative Company
(USAC) to recover $5,452. In addition, we recommend that the Wireline Competition
Bureau take steps to ensure that funding requests are adequately reviewed in accordance
with existing program rules and implementing procedures to ensure that funding requests
associated with this area of noncompliance with program rules and regulations are not
approved. Further, we recommend that the Wireline Competition Bureau review those
program rules and implementing procedures governing the area of noncompliance cited
in this report to ensure that those program rules and implementing procedures are
adequate to protect the interests of the fund.

We held an exit conference on October 24, 2003 with the beneficiary’s representatives,
and requested their comments on the results of the audit. They asked to be able to
provide comments at a later date. They have not provided any comments to this date, but
they have indicated they are prepared to write a check to reimburse the Fund.
We provided management with a copy of our draft audit report, dated November 25,
2003, and requested they provide comments on their concurrence with the findings of the
audit. In a response dated December 10, 2003, the Wireline Competition Bureau (WCB)
indicated that they concurred fully or in part with our three audit recommendations.
WCB’s response is included in its entirety in the Appendix to the report.

If you have any questions, please contact me or Thomas Cline, Assistant Inspector
General for Audit, at (202) 418-7890.




                                            H. Walker Feaster III

Attachment

Copy furnished:
      John Wallingford, Supervisor of Finance, Prince William County Schools
      George, McDonald, Vice President, Schools and Libraries Division, USAC
      Chief, Wireline Competition Bureau
      Performance Evaluation and Records Management, Office of Managing Director
FEDERAL COMMUNICATIONS
      COMMISSION
  OFFICE OF INSPECTOR GENERAL




  Report on Audit of the E-rate Program at the
        Prince William County Schools

          Report No. 02-AUD-02-04-11
              December 22, 2003
     Report on Audit of the E-rate Program at the Prince William County Schools


                                 Table of Contents


                                                                          Page


EXECUTIVE SUMMARY                                                            1


BACKGROUND INFORMATION                                                       2


AUDIT OBJECTIVES AND SCOPE                                                    2


AUDIT FINDING AND RECOMMENDATIONS                                            3


APPENDIX – Management Response
Report on Audit of the E-rate Program at the Prince William County Schools

EXECUTIVE SUMMARY

On May 7, 1997, the FCC adopted a Universal Service Order implementing the
Telecommunications Act of 1996. Included in this Order was the Schools and Libraries
Support Mechanism of the USF (hereinafter known as the E-rate program) in which all
eligible schools and libraries can receive discounts from the USF on eligible
communication services ranging from 20 to 90 percent, depending on economic need and
location. The OIG has designed a program of audit oversight to provide FCC
management with a reasonable level of assurance that beneficiaries are complying with
program rules and that program controls are adequate to prevent fraud, waste and abuse.

Prince William County Schools is a public school system in Prince William County,
Virginia. The district offices are located in Manassas, Virginia. The period of our review
was from June 30, 1999 to July 1, 2000, which comprises Funding Year (FY) 1999 of the
E-rate program. We performed our audit at Prince William County Schools in Manassas,
Virginia and visited two schools in addition to touring the district office facilities.

Prince William’s FY 1999 commitments amounted to $1,324,675 and $1,126,449 in
funding was disbursed, of which 46% was spent on internal connections, 52% on
telecommunications and 2% on internal connections.

Our audit of the use of E-rate funds at Prince William County Schools disclosed that the
beneficiary is compliant in most respects with the requirements of the program for
funding year 1999. However, the audit identified one area of noncompliance. Eighty-
five (85) cellular phones associated with a cellular service contract were identified as
paid for by SLD but not compliant with the educational purpose requirements of e-rate
funding. The funding disbursed for the ineligible cellular phones was $5,452 which is a
potential fund recovery. We recommend that the Wireline Competition Bureau direct the
Universal Service Administrative Company (USAC) to recover $5,452. In addition, we
recommend that the Wireline Competition Bureau take steps to ensure that funding
requests are adequately reviewed in accordance with existing program rules and
implementing procedures to ensure that funding requests associated with this area of
noncompliance with program rules and regulations are not approved. Further, we
recommend that the Wireline Competition Bureau review those program rules and
implementing procedures governing the area of noncompliance cited in this report to
ensure that those program rules and implementing procedures are adequate to protect the
interests of the fund.

We held an exit conference on October 24, 2003 with the beneficiary’s representatives,
and requested their comments on the results of the audit. They asked to be able to
provide comments at a later date. They have not provided any comments to this date.

We provided management with a copy of our draft audit report, dated November 25,
2003, and requested they provide comments on their concurrence with the findings of the


                                            1

         NON-PUBLIC INFORMATION - FOR INTERNAL FCC USE ONLY
Report on Audit of the E-rate Program at the Prince William County Schools

audit. In a response dated December 10, 2003, the Wireline Competition Bureau (WCB)
indicated that they concurred fully or in part with our three audit recommendations.
WCB’s response is included in its entirety in the Appendix to the report.

BACKGROUND INFORMATION

In accordance with the Inspector General Act of 1978, as amended, the Office of
Inspector General at the Federal Communications Commission has oversight
responsibilities for the Universal Service Fund (USF) as a program of the Federal
Communications Commission (FCC). The USF provides affordable access to specified
communications services for schools, libraries, rural health care providers, low-income
consumers and companies serving high-cost areas. On May 7, 1997, the FCC adopted a
Universal Service Order implementing the Telecommunications Act of 1996. Included in
this Order was the Schools and Libraries Funding Mechanism of the USF (hereinafter
known as the E-rate program) in which all eligible schools and libraries can receive
discounts from the USF on eligible communication services ranging from 20 to 90
percent, depending on economic need and location. The Universal Service
Administrative Company (USAC) is responsible for administering the Fund under the
direction of the FCC’s Wireline Competition Bureau. The Schools and Libraries
Division (SLD) of USAC administers the E-rate program.

USF discounts can be applied to three kinds of services and products:

•   Telecommunication services, including basic phone service.
•   Internet access.
•   Internal connections, including wiring and network equipment needed to bring
    information directly to classrooms or library patrons.

Prince William County Schools is a public school system in Prince William County,
Virginia. The district offices are located in Manassas, Virginia. FY 1999 commitments
amounted to $1,324,675 and $1,126,449 in funding was disbursed, of which 46% was
spent on internal connections, 52% on telecommunications and 2% on internal
connections.

AUDIT OBJECTIVE AND SCOPE

The OIG has designed a program of audit oversight to provide FCC management with
insight into the compliance with program rules and regulations by beneficiaries of the E-
rate program. This audit was conducted as part of that oversight program. The objective
of this audit was to assess the beneficiary’s compliance with the rules and regulations of
the USF program and to identify areas in which to improve the program.




                                            2

         NON-PUBLIC INFORMATION - FOR INTERNAL FCC USE ONLY
Report on Audit of the E-rate Program at the Prince William County Schools

The scope of this audit was designed to test recipient compliance with program
requirements contained in Title 47, Part 54 of the Code of Federal Regulations (47 CFR
54.500 through 47 CFR 54.520) that include:

•   The beneficiary determines its discount percentage by the percentage of their student
    enrollment that is eligible for a free or reduced price lunch under the national school
    lunch program or a federally-approved alternative mechanism.
•   A process has been established to select the most cost effective service provider.
•   Equipment and services are purchased in accordance with applicable procurement
    rules and regulations, and the applicant has paid its portion of the pre-discounted
    costs.
•   Services rendered are consistent with what the beneficiary presented on its
    application for E-rate funds and were installed or provided before the installation
    deadline.
•   The beneficiary has adequate resources, as certified, to use the discounted services for
    which funding has been provided.
•   The beneficiary has an approved technology plan, as certified.

The period of our review was from June 30, 1999 to July 1, 2000, which comprises
Funding Year 2 of the E-rate program. We performed our audit at Prince William
County Schools in Manassas, Virginia and visited two schools in addition to touring the
district office facilities.

This audit was conducted in accordance with Government Auditing Standards issued by
the Comptroller General of the United States. As part of the scope of our audit, we
obtained an understanding of the specific management controls relevant to the E-rate
program. Because of inherent limitations, a study and evaluation made for the limited
purposes of our audit would not necessarily disclose all material weaknesses in the
control structure. However, we identified a significant management weakness as
discussed in the Audit Results section of this report and in Finding 1.

AUDIT FINDING AND RECOMMENDATIONS

Our audit of the use of E-rate funds at Prince William County Schools disclosed that the
beneficiary is compliant in most respects with the requirements of the program.
However, the audit identified one area of noncompliance. Eighty-five (85) cellular
phones associated with a cellular service contract paid for by SLD were not compliant
with the educational purpose requirements of e-rate funding. The funding disbursed for
the ineligible cellular phones was $5,452 which is a potential fund recovery.

AUDIT FINDING




                                             3

         NON-PUBLIC INFORMATION - FOR INTERNAL FCC USE ONLY
Report on Audit of the E-rate Program at the Prince William County Schools

Eighty-five (85) cellular phones associated with a cellular service contract were identified
as paid for by SLD but were not compliant with the educational purpose requirements of
e-rate funding.

Title 47 CFR 254(h)(1)(B) requires that E-rate services provided to eligible schools and
libraries be used educational purposes. Compliance with this requirement is certified to
by the beneficiary on FCC Form 471. Cellular service is eligible for discount when
provided for use at a place of instruction and for educational purposes. The use of the
phone must support instruction or support curriculum or instruction management.
Cellular service for teachers, teacher aides, principals, curriculum coordinators,
superintendents, and librarians, for example, would be eligible. Generally, cellular
service for school or library personnel not involved with instruction, such as cafeteria
directors, maintenance personnel, and facility directors, would not be eligible unless
those individuals also provided instruction. The service is not eligible when provided for
only security purposes, including security purposes on school buses.

Based on our review, we found that the cellular phones in question were held by 46
maintenance personnel, 24 security personnel, 13 plant operations personnel, and 2
ineligible administrative personnel (85 in total). We conclude that these services are
ineligible for e-rate funding.

The total cost of the cellular service contracts for year 2 was $45,120, of which $17,766
was paid for by SLD. The total number of cellular phones serviced under this contract
was 277. The phones in question represent 30.69% of the total phones under the contract.
Therefore, we estimate the potential funding recovery for ineligible cellular phones to be
$5,452.

RECOMMENDATIONS

Recommendation 1 of 3 - We recommend that the Wireline Competition Bureau direct
the Universal Service Administrative Company (USAC) to recover $5,452 for ineligible
cellular phone service.

Recommendation 2 of 3 - We recommend that the Wireline Competition Bureau take
steps to ensure that funding requests are adequately reviewed in accordance with existing
program rules and implementing procedures to ensure that funding requests associated
with this area of noncompliance with program rules and regulations are not approved.

Recommendation 3 of 3 - We recommend that the Wireline Competition Bureau review
those program rules and implementing procedures governing the area of noncompliance
cited in this report to ensure that those program rules and implementing procedures are
adequate to protect the interests of the fund.




                                             4

         NON-PUBLIC INFORMATION - FOR INTERNAL FCC USE ONLY
Report on Audit of the E-rate Program at the Prince William County Schools




          FEDERAL COMMUNICATIONS
                COMMISSION

             OFFICE OF INSPECTOR GENERAL




              Report on Audit of the E-rate Program at the
                    Prince William County Schools

                          Report No. 02-AUD-02-04-11


                  APPENDIX – Management Response




                                          5

        NON-PUBLIC INFORMATION - FOR INTERNAL FCC USE ONLY
